                                         NATIONAL SCIENCE FOUNDATION               lt

                                          OFFICE OF INSPECTOR GENERAL               I
                                            OFFICE OF INVESTIGATIONS               11
                                                                                        I
                                   CLOSEOUT MEMORANDUM
                                                                                        11


TO: AIGI       1   File Number: I97120060                                     I   Dite: 6 June 2002

Subject: Closeout Memo                                                                                    Page 1 of 1

                                                                                             'I
     There was no closeout written at the time this case was closed. The follo*ing information was
     extracted from the file in conformance with standard closeout dociments. 'I

     Our office was informed that the subject' was alleged to have committed knancial conflicts of
     interest. The subject participated in discussions about OIG's report2,whicd included issues that
     would affect him directly. The subject's actions constitute a possible violatiod of 18 USC 208. OIG
     consulted with the Office of Government Ethics and concluded that, while it w+ not a clear violation
     of 18 USC 208, his actions did create appearance problems. In Frebruary 1998, the subject issued a
     recusal notice about the matters in the IG report.                              'I

                                                                                                  I

     Accordingly this case is closed.                                                             !


                                                                                                  ,i
                                                                                                      I




                    Prepared by:                  Cleared by:

                   Agent:          Attorney:     Supervisor:    AIGI
   Name:



 Signature &
    date:
